No.

IN THE
SUPREME COURT OF THE UNITED STATES

“ IN RE [Theresa S. Romain]” Petitioner
dba Alternative Homecare Co.

PROOF OF SERVICE

I Theresa S. Romain. do swear or declare that on this date, October

)*T^020 as

required by Supreme Court Rule 29.1 have served the petition Writ of Mandamus,
Prohibition, Habeas Corpus and Injunctive Relief on each party to the above proceeding or
that party counsel and every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first -class postage prepaid, or by delivery to a third party commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
William P. Barr (U.S. Attorney General)
950 Pennsylvania Ave N.W.
Washington DC 20530-0001

Letitia James (Attorney General)
Robert Abrams Building for Law and Justice
State Street, Albany NY. 12223
518- 474- 8390

1

Governor Andrew M. Cuomo
NYS State Capitol Building
Albany, NY. 12224
518- 474- 8390

Clinton G. Johnson (County Attorney)
P.O.Box 1800
Kingston NY 12402-1800

Hon. Thomas Breslin (Chief Administrative Judge 3rd District)
2500 Pond View Suite 210, Castleton on-Hudson, NY 12033 518-285-8300
Robert D. Cook Esq.
Cook , Netter, Cloonan, Kurtz and Murphy P.C
85 Main Street
C/O P.0 Box 3939
Kingston NY. 12402 845-943-2498

Joshua Koplovitz Esq.
P.O.Box 3268
Kingston NY. 12402
845-331-0100

CATHERINE CHARUK Esq. (Pro Se)
P.O.Box 4011 Kingston, NY. 12402
845-334-9775

Justice Randall T. Eng
990 Stewart Ave 516-741-6565
Garden City, NY. 11530

Goldberg Segalla LLP
11 Martine Ave, Suite 750
White Plains NY. 10606 12566
914-798-5400

Dutchess County Supreme Court
10 Market Street
Poughkeepsie NY. 12601
Attn: Maria G. Rosa (J.S.C.)

Karen K. Peters(Commissioner on justice)
112 State Street, Albany NY. 12207

Gross Polowy LLC
1775 Wehrle Drive Suite 100
Williamsville NY. 14221
Attn: Sarah K. Hyman Esq
Bidget Bidonde Esq.

Knuckles Komosinski & Manfro LLP
565 Taxer Road Suit 590
Elmsford New York Attn: Mark Knuckles
/Maxium Smelyanski Esq.
Microsoft Corporation
One Microsoft Way, Redmond WA. 98052
Attn: Satya Nadella (Ceo)
Lisa Brummel (VP)

C/O UPS ATLANTA GA. 30328
United Parcel Service (UPS)
2600 South Roads
Poughkeepsie NY 12601
Rusk Walden Heppner
& Martuscello 255 Fair St
Kingston NY. 12401
Attn: John Rusk Esq.
845-331-4100

United Parcel Service (UPS)
Cooperate Office
55 Glenlake Pkway N.E.
Atlanta GA. 30328
Google LLC Cooperate Head Quaters
C/O Alphabet INC.
1600 Amphitheatre Pk Way
Mountain View CA. 94043

Selene Finance For
Wilmington Savings Fund Society et al
9990 Richmond Ave
Houston, TX. 77042

Wells Fargo Home Mortgage
Head Quaters
420 Montgomery Street
San Francisco California 94104
Charlie Scharf (Ceo)

Straight Talk Inc.
9700 N.W. 112th Ave
Miami FL. 33178
Executive Resolution Department
Eduardo Diaz Corona Attn: Ceo

2.

TRAVIS DAVIS RN (UN Represented) (Pro se)
121 Stein Road Pine Bush, NY. 12566
845-744-5113

Michael V. Coccoma (Former Admin. Judge)
Supreme Court Chambers
Ostego County Office Bid.
197 Main Street, Cooperstown
, NY. 13326 607-322-3165

I declare under penalty of perjury that the foregoing is true and correct

Date

.2020
Signature*

Date: September

Notary Public

THOMASFSTURGESS
Notary Puisic - State of New York
NO. 013T6367347
Qualified in Dutchess County
My Commission Expires Dec 4.2021

3.

C9^72020

Additional material
from this filing is
available in the
Clerk's Office.

